<html>
<title> - REVIEW OF AWARDING BONUSES TO SENIOR EXECUTIVES AT THE DEPARTMENT OF VETERANS AFFAIRS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





                     REVIEW OF AWARDING BONUSES TO

                        SENIOR EXECUTIVES AT THE

                     DEPARTMENT OF VETERANS AFFAIRS
=======================================================================

                                HEARING

                               before the


                     COMMITTEE ON VETERANS' AFFAIRS
                     
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                         FRIDAY, JUNE 20, 2014

                               __________

                           Serial No. 113-75

                               __________

       Printed for the use of the Committee on Veterans' Affairs


         Available via the World Wide Web: http://www.fdsys.gov
         
         
         

                                   ______

                      U.S. GOVERNMENT PUBLISHING OFFICE 

89-374 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
                          
                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               MICHAEL H. MICHAUD, Maine, Ranking 
GUS M. BILIRAKIS, Florida, Vice-         Minority Member
    Chairman                         CORRINE BROWN, Florida
DAVID P. ROE, Tennessee              MARK TAKANO, California
BILL FLORES, Texas                   JULIA BROWNLEY, California
JEFF DENHAM, California              DINA TITUS, Nevada
JON RUNYAN, New Jersey               ANN KIRKPATRICK, Arizona
DAN BENISHEK, Michigan               RAUL RUIZ, California
TIM HUELSKAMP, Kansas                GLORIA NEGRETE McLEOD, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
PAUL COOK, California                TIMOTHY J. WALZ, Minnesota
JACKIE WALORSKI, Indiana
DAVID JOLLY, Florida
                       Jon Towers, Staff Director
                 Nancy Dolan, Democratic Staff Director

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.

                            C O N T E N T S

                              ----------                              
                                                                   Page

                          Friday, June 20, 2014

Review of Awarding Bonuses to Senior Executives at the Department 
  of Veterans Affairs............................................     1

                           OPENING STATEMENTS

Hon. Jeff Miller, Chairman.......................................     1
    Prepared Statement...........................................    33

Hon. Michael Michaud, Ranking Minority Member....................     4
    Prepared Statement...........................................    35

Hon. Ann Kirkpatrick
    Prepared Statement...........................................    35

Hon. Timothy Walz
    Prepared Statement...........................................    35

                                WITNESS

Hon. Gina Farrisee, Assistant Secretary for Human Resources and 
  Administration, U.S. Department of Veterans Affairs............     5
    Prepared Statement...........................................    37

                   MATERIALS SUBMITTED FOR THE RECORD

Statement From: SEA..............................................    43
Letter and Questions From: Minority Member.......................    48
Questions for the Record.........................................    50

 
 REVIEW OF AWARDING BONUSES TO SENIOR EXECUTIVES AT THE DEPARTMENT OF
 
                            VETERANS AFFAIRS

                              ----------                              


                         Friday, June 20, 2014

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 9:30 a.m., in 
Room 334, Cannon House Office Building, Hon. Jeff Miller 
[chairman of the committee] presiding.
    Present: Representatives Miller, Lamborn, Bilirakis, Poe, 
Runyan, Benishek, Huelskamp, Coffman, Wenstrup, Cook, Walorski, 
Jolly, Michaud, Takano, Brownley, Titus, Ruiz, Kuster and 
O'Rourke.

           OPENING STATEMENT OF CHAIRMAN JEFF MILLER

    The Chairman. The committee will come to order. Thank you 
all for being here this morning. We had planned on a business 
meeting this morning to subpoena two sets of documents from the 
VA that were long-standing requests from the committee, but 
yesterday VA delivered information regarding the removal of six 
SES employees for the past two fiscal years. This request was 
made by multiple members of this committee, including myself, 
in multiple hearings going back to February. This morning VA 
delivered the second set of documents, which I requested via 
letter in October of 2013. The documents cover the performance 
reviews for each SES individual for fiscal years 2011 and 2012.
    Now, although VA's response to our request was delayed, 
their production of the requested materials is sufficient, and 
therefore, after consultation with the ranking member, we will 
no longer be having a business meeting this morning.
    This morning's full committee hearing is entitled Review of 
Awarding Bonuses to Senior Executives at the Department of 
Veterans Affairs, and we're going to examine the outlandish 
bonus culture at the VA and the larger organizational crisis 
that seems to have developed from awarding performance awards 
to senior executives despite the fact that their performance 
fails to deliver on our promise to our veterans.
    As the committee's investigation into the Department 
continues, and new allegations and cover-ups are exposed, it's 
important that we examine how the Department has arrived at the 
point where it is today. Sadly, it's come to a point which has 
eroded veterans' trust and America's confidence in VA's 
execution of its mission. Part of the mistrust centers on a 
belief that VA employees are motivated by financial incentives 
alone, and I can certainly see why that perception is out 
there.
    It appears as if VA's performance review system is failing 
the veterans that they are supposed to be serving. Instead of 
using bonuses as an award for outstanding work on behalf of our 
veterans, cash awards are seen as an entitlement and have 
become irrelevant to the quality of work product.
    I know we all agree that preventable patient deaths, delays 
in care, and continual backlogs of disability claims, cost 
overruns and construction delays for VA facilities, and 
deliberate behavior to falsify data are not behaviors that 
should be rewarded, yet despite startling issues that continue 
to come to light, as well as numerous past IG and GAO reports 
highlighting these same issues, a majority of senior VA 
managers received a performance award for fiscal year 2013.
    According to VA's own data, over $2.8 million was paid out 
in performance awards to senior executives for FY13. These 
performance awards went to at least 65 percent of the senior 
executive workforce at the Department. In fact, not a single 
senior manager at VA out of 470 individuals received less than 
a fully successful performance review for the last fiscal year, 
not one.
    Based on this committee's investigations, outside 
independent reports, and what we have learned in the last few 
months, I wholeheartedly disagree with VA's assessment of its 
senior staff. It should not be the practice of any Federal 
Agency to issue taxpayer dollars in addition to paying six-
figure salaries to failing senior managers just because a 
current OPM statute for members of the SES allows that to 
occur. Bonuses are not an entitlement; they are a reward for 
exceptional work. VA's current practice only breeds a sense of 
entitlement and a lack of accountability and is why we are here 
today.
    This issue, unfortunately, is not a new one for the VA. The 
committee has focused its oversight on bonuses for years, and 
if Members were to go back and review the 2007 Subcommittee on 
Oversight and Investigation hearing on awards and bonuses, you 
would find that the issue we raise today was questioned 7 years 
ago. There seems to be little, if any, improvement.
    In a May 2013 hearing, VA construction chief Glenn 
Haggstrom admitted that he could not explain why he collected 
almost $55,000 in performance bonuses despite overseeing failed 
construction plans that cost our government nearly $1.5 billion 
in cost overruns. In December of 2012, an investigation by this 
committee revealed a legionella outbreak in the Pittsburgh 
Healthcare System that led to at least six patient deaths. 
Nevertheless, the Director there, Terry Gerigk Wolf, received a 
perfect performance review, and the regional director, Michael 
Moreland, who oversaw VA's Pittsburgh operation at the time, 
collected a $63,000 bonus. To the average American, $63,000 is 
considered to be a competitive annual salary, not a bonus.
    The medical center director in Dayton, OH, received a 
nearly $12,000 bonus despite an open investigation into 
veterans' exposure to hepatitis B and C under his watch. The 
Director at the Atlanta VA Medical Center, who oversaw multiple 
preventable deaths, received $65,000 in performance bonuses 
over his four years there. The former director of the VA 
regional office in Waco, Texas, received more than $53,000 in 
bonuses. While under his tenure the Waco office's average 
disability claims processing time multiplied to inexcusable 
levels.
    Unfortunately, I could go on and on. These are not the only 
instances of those charged with managing VA programs and health 
care facilities falling far short of the quality that veterans 
and their families deserve. So, in short, there are far too 
many examples that prove that bonuses do not ensure good 
performance.
    As we have previously heard from several witnesses in this 
committee, including those from VA, the quest for monetary gain 
rather than public service has led to data manipulation and 
secret lists designed to create a false impression of quality 
health care that is timely and responsive to veterans. This is 
scandalous, even criminal, I would argue, and it runs far 
deeper than just Phoenix.
    Today we'll explore the circumstances surrounding the award 
and eventual rescission of a performance bonus award provided 
to the former Director of the VA Medical Center in Phoenix, 
Arizona, Miss Sharon Helman. In February of 2014, Ms. Helman 
was given an $8,500 bonus for her performance during fiscal 
year 2013. Only after allegations against Ms. Helman came to 
light as a result of this committee's work did a conscientious 
VA employee examine whether she received a bonus in fiscal year 
2013. When we questioned the award, VA determined that she was 
given this bonus due to an administrative error. However, past 
documentation from VA has stated that all performance reviews 
and awards are ultimately reviewed and signed by the Secretary. 
Furthermore, Ms. Helman's direct supervisor, former VISN 18 
network Director Susan Bowers, stated in May that Sharon Helman 
received her bonus for a highly successful rating and for 
improving access concerns and wait lists. Perhaps we should 
also question Ms. Bowers' qualifications.
    These stories do not match up, and I believe it further 
brings into question VA's transparency as well as diligence 
when issuing thousands of dollars in bonuses.
    Although Acting Secretary Gibson has rightly put a freeze 
on all bonuses for senior executives at VHA for the time being, 
it is still this committee's responsibility to understand the 
rationale for awarding five-figure bonuses to individuals who 
have clearly fallen short of the Department's mission and their 
commitment to those who have served.
    A performance bonus award should not be received because 
you are able to check off a few boxes on a form. A performance 
award should not be an expectation. A bonus is not an 
entitlement. Those at the Department of Veterans Affairs are 
there to serve the veterans and their families. Anything less 
than the highest possible quality should not be rewarded. 
Gaming the bonus system is not a business that VA should be in.
    Today we'll hear what VA has to say about their performance 
review system, why senior managers who have overseen failure 
have received thousands of dollars in bonuses, and how these 
large performance bonuses could have led to the terrible 
situation that the Department is now in.

    [The prepared statement of Chairman Jeff Miller appears in 
the Appendix]

    The Chairman. With that, I now recognize the ranking member 
for his opening statement.

 OPENING STATEMENT OF MICHAEL MICHAUD, RANKING MINORITY MEMBER

    Mr. Michaud. Thank you very much, Mr. Chairman, for having 
this hearing. I want to thank the witness for coming this 
morning as well.
    Michael Leboeuf in his book entitled The Greatest 
Management Principle Ever said, and I quote, ``The things that 
get measured are the things that get done,'' end of quote. We 
have seen this statement borne out recently within the VA in a 
very negative way. As witnesses have stated in recent hearings, 
VA's focus on unrealistic wait time measured resulted in 
employees manipulating the system to seem like they were 
meeting the measured standards. Leboeuf went on to say in a 
later book, and I quote, ``The things that get measured and 
rewarded are the things that get done well,'' end of quote. 
Today we're going to look at the second piece, how VA senior 
executives are awarded, and how the system does or does not 
incentivize things to get done well.
    Before we get into that discussion, let me also recognize 
that there are a lot of VA employees who do things well. As we 
shine the light on those who do not, let me pause for a moment 
and shine a brighter light, more positive light on the hard-
working employees at VA who does things well, and we must not 
forget that, and to them I say, thank you for your service and 
for setting an example, and hopefully all employees within the 
VA look at keeping their bottom line on how we serve the 
veteran.
    With that, Mr. Chairman, I know we have votes this morning, 
so I would ask unanimous consent the remainder of my remarks be 
entered into the record, and with that I yield back.
    The Chairman. Without objection.

    [The prepared statement of Hon. Michael Michaud appears in 
the Appendix]

    The Chairman. Members, we'll hold opening statements. Your 
opening statements, should you have one, will be entered into 
the record at the appropriate time.
    The Chairman. Thank you for being here with us today. We 
have one panelist. We're going to hear from the Honorable Gina 
Farrisee, Assistant Secretary for Human Resources and 
Administration at the Department of Veterans Affairs.
    I would ask that you would please stand, raise your right 
hand.
    [Witness sworn.]
    The Chairman. Thank you. You may be seated.
    Your complete written statement will also be made a part of 
the record. Thank you for being here with us this morning, 
Secretary Farrisee, and you are recognized for 5 minutes.

STATEMENT OF HON. GINA FARRISEE, ASSISTANT SECRETARY FOR HUMAN 
   RESOURCES AND ADMINISTRATION, U.S. DEPARTMENT OF VETERANS 
                            AFFAIRS

                STATEMENT OF HON. GINA FARRISEE

    Ms. Farrisee. Chairman Miller, Ranking Member Michaud, 
distinguished members of the committee, thank you for the 
opportunity to appear before the committee to discuss VA's 
senior executive performance management system.
    I would like to express on behalf of the VA workforce our 
commitment to the Department's veterans. To accomplish this 
mission, we must recruit and retain the best talent, many of 
whom require special skills in health care, information 
technology, and benefits delivery.
    In particular, VA requires talented senior executives to 
manage the complex set of VA facilities and programs. We are 
competing in tough public and private labor markets for skilled 
personnel. To remain competitive in recruiting and retaining, 
we must rely on tools such as incentives and awards that 
recognize superior performance. However, we also acknowledge 
that we must do a better job in holding our employees and our 
leaders accountable.
    Our senior leadership must become more engaged in managing 
executive performance plans, to include counseling, midyear 
assessments, and documentation. We realize that improvement in 
SES performance management also serves as a model for the 
General Schedule workforce performance appraisal process.
    The key is stringent and precise implementation and 
oversight of all performance plans, whether for executives or 
General Scheduled employees. Equally important is that we have 
good performance training programs for executives.
    Performance management has many challenges. By its nature 
it is very subjective and complex. It is used to identify 
superlative and poor performers, and it is the foundation of 
development and mentoring. Senior executives must understand 
how to craft good critical elements for their subordinates that 
are practical for performance management purposes. They must 
also fully understand the process and know how to document 
assessments so that decisions on poor performers will be 
defensible. Leaders must confidently communicate directly with 
the subordinate and prevail during the due process steps that 
follow such decisions.
    The VA is fortifying existing efforts to train executives 
on the fundamentals of performance management and how to 
confront poor performance. We cannot assume that our executives 
are skilled in these areas. Our executives must receive 
frequent and better training on the performance process and 
guidance on confronting poor performers.
    The data shows that VA's implementation of the SES 
performance process has become more rigorous over the last few 
years. From 2010 to 2013, the VA decreased the percentage of 
outstanding ratings from 35 percent down to 21 percent.
    We presently have an OPM-certified senior executive 
performance appraisal system. To receive OPM certification, 
agencies must demonstrate adherence to laws and policies in the 
evaluation of senior executives and distribution of awards. 
Agencies must also make meaningful distinctions in the 
evaluation of senior executive performance plans to receive the 
certification. The certification is rigorous, and failure to 
receive certification has significant consequences to a Federal 
agency.
    As outlined in the statute, monetary awards were designed 
to be part of SES compensation. That is the premise of pay-for-
performance law. Failure to recognize value and performance 
puts VA at the risk of accelerating retirement, resignation 
and/or transfer to other agencies or the private sector of some 
of the Department's most effective senior talent.
    The process VA uses is described in my written testimony, 
but I would like to just touch on some of the high points. Most 
important is that the VA has uniformity in evaluating 
executives, and has a single performance management system for 
both Title 5 and Title 38 employees. We use five rating levels 
in the VA and have published standards for these five ratings.
    Presently VA certified performance appraisal system goes 
beyond the minimum standards set by OPM. In 2011, VA added a 
reviewing official, which is not required, as part of the 
rating process for most senior executives. This reviewing 
official is responsible for highlighting any areas of 
disagreement with the rating official and providing a second, 
more senior review. In addition, the Department formed 
performance review committees that conduct an initial review of 
appraisals prior to the review of the VA Performance Review 
Board. The addition of a review by the VA committees prior to 
the VA Board is an added feature that looks at consistency 
throughout the VA lines of business. We are also currently 
refining our policy on deferred ratings to ensure clear, 
concise guidance on the process, step by step.
    In closing, it is clear that VA must do a better job of 
holding our executives and employees accountable for poor 
performance. Good organizations establish clear standards, 
train employees to meet those standards, and then hold them 
accountable. VA cannot assume that our executives are 
adequately skilled in performance management, so we are taking 
steps to refine our training courses to address the shortfalls. 
In order to better serve our veterans, VA must continue to 
attract and retain the best and brightest leaders.
    Thank you for this opportunity to appear before you today, 
and I look forward to answering your questions.

    [The prepared statement of Hon. Gina Farrisee appears in 
the Appendix]

    The Chairman. Thank you very much for being here with us. 
According to your testimony, from FY 2010 through 2013, not a 
single member of the SES, a pool of 470 individuals, received a 
less than fully satisfactory or successful rating; is that 
correct?
    Ms. Farrisee. That is correct.
    The Chairman. Knowing what we know now about the fraudulent 
actions being taken in facilities all across this country that 
have harmed our veterans, do you think that the Department's 
assessment that 100 percent of senior managers at VA have been 
fully successful in the past four years is in line with 
reality?
    Ms. Farrisee. Mr. Chairman, if we knew what we knew today 
at that time, it is unlikely that their performance would have 
reflected what it reflected at the time the reports were 
written.
    The Chairman. Do you go back and change a performance 
review based on information that's gathered after the fact?
    Ms. Farrisee. Mr. Chairman, you cannot go back and change a 
rating once it has been issued to an employee as the final 
rating.
    The Chairman. Even if there's information that was hidden 
from the raters?
    Ms. Farrisee. Even if there's information that was hidden.
    The Chairman. Is that a law or a rule?
    Ms. Farrisee. It is a law.
    The Chairman. Is it a law that needs to be changed?
    Ms. Farrisee. There are other ways to discipline employees 
for misconduct. If you find out----
    The Chairman. Wait, wait, wait, wait. You're telling me if 
you find out somebody does something that specifically harms 
veterans, is potentially criminal, that the Department's 
position is you would not go back and change somebody's rating 
if you had the ability to do that?
    Ms. Farrisee. If we had the authority, we would use all 
authorities provided to us.
    The Chairman. And so my question to you, is that something 
that you would recommend that this committee do is to look into 
having the law changed so that you can go back and change 
performance reviews?
    Ms. Farrisee. Mr. Chairman, if that was for across the 
Federal Government, I could agree with that.
    The Chairman. Well, we're focused on the VA, okay? And the 
VA hasn't been doing very well lately. And I would hope that 
the anger and the frustration that I hear in the Acting 
Secretary's voice would filter through every employee and 
especially in the central office. Things have to change. We 
can't keep doing it the way it's being done.
    Ms. Farrisee. I concur, Mr. Chairman.
    The Chairman. You're aware this committee has spent 
considerable time looking at the outbreak of Legionnaires' 
disease in Pittsburgh in the water system where it has been 
proven that there were at least six preventable deaths?
    Ms. Farrisee. Yes, Mr. Chairman.
    The Chairman. During this time period Mr. Moreland, who was 
then the Director of the VISN, had the responsibility of 
overseeing this facility and was given a one-time $63,000 
bonus. Are you aware of that?
    Ms. Farrisee. I am aware of it.
    The Chairman. During questioning at a September 9th field 
hearing in Pittsburgh, then-Under Secretary Petzel told this 
committee that it was his understanding that Secretary Shinseki 
did not have the authority to rescind the bonus, but that he 
would look into that. Are you aware of that?
    Ms. Farrisee. I am, Mr. Chairman.
    The Chairman. Did anyone ask you about VA's authority to 
rescind bonuses prior to Miss Helman's case?
    Ms. Farrisee. No, Mr. Chairman.
    The Chairman. Anyone ask the Office of General Counsel?
    Ms. Farrisee. Mr. Chairman, I'm not aware.
    The Chairman. Is it safe to say that Dr. Petzel then sought 
his own legal counsel on the matter and then never looked at it 
at all?
    Ms. Farrisee. Mr. Chairman, I would assume that he 
discussed this with General Counsel. General Counsel's views 
when I have talked to them about rescinding bonuses, that 
rescinding awards based on a rating that was already given to 
an employee in finality is we have no authority to take the 
rating back nor the award which is the result of that rating.
    The Chairman. So how did we take Miss Helman's bonus back?
    Ms. Farrisee. Miss Helman's bonus was erroneously released. 
The VA does have a standard operating procedure of any employee 
who has an investigation ongoing that we have been made aware 
of by the IG or Equal Opportunity or other venues, we put them 
on a deferred list. Miss Helman's name was on the deferred 2013 
list. Her rating should not have been released. It was never 
definitively said that was her final rating, it was not her 
final rating, and because it was not final, we took the 
opportunity to rescind that rating. We worked with General 
Counsel and also OPM.
    It is unprecedented for that to have happened, but based on 
the fact that the VA has a standard operating procedure of 
maintaining deferred ratings, it was proven that that was not a 
final rating that was determined by the Secretary to be 
released.
    The Chairman. Is it final now?
    Ms. Farrisee. It is not, Chairman.
    The Chairman. Can you explain why?
    Ms. Farrisee. Her--it was rescinded. Her name is still on 
the deferred list. Until the investigation is complete, no 
decision will be made on that rating.
    The Chairman. And she still is employed by the Department 
of Veterans Affairs and being paid her full salary?
    Ms. Farrisee. She is, Mr. Chairman.
    The Chairman. Okay. And so you don't believe that it was 
extenuating circumstances or--I forgot what the term was that 
you used--that Dr. Moreland, who oversaw the VISN, that there 
were six preventable deaths, he got a $63,000 bonus, and nobody 
thought that was worth looking into to see if that could be 
rescinded?
    Ms. Farrisee. Mr. Chairman, I can't answer that. I wasn't 
there when that award was given.
    The Chairman. Okay, thank you. Mr. Michaud.
    Mr. Michaud. Thank you very much, Mr. Chairman.
    Once again, thank you for your testimony.
    Sometime my colleagues use the words like ``bonus award'' 
and ``performance pay'' interchangeably, but I understand they 
are different. Can you please explain--describe to us the 
different categories of additional pay available to VA senior 
executives?
    Ms. Farrisee. Yes, I can. There are several different kinds 
of incentives. There are relocation, recruitment and retention 
incentives that can be given in proper situations to employees. 
There are standards that we must meet in order to provide any 
of those incentives for our health care, doctors, and dentists. 
They receive what is called market pay and performance pay, 
which are in addition to a base pay. They all have different 
complex ways of calculation, but a normal Title 5 employee is 
not authorized for those pays. That is only for our physicians 
and our dentists.
    Mr. Michaud. The Title 38 employees?
    Ms. Farrisee. Title 38, yes, sir.
    Mr. Michaud. What's--can you discuss the performance award 
bonus initiatives and the tiered pay?
    Ms. Farrisee. The tiered pay for our awards is based on the 
ratings, the highest rating being outstanding, and then exceeds 
fully successful, and then fully successful. A determination is 
made by the Secretary at which level he will provide awards 
based on the ratings.
    For the last two years, employees who received exceeds 
fully successful and outstanding were the employees who 
received awards. Those awards are calculated at different 
percentages. Part of the certification system by OPM requires 
that there be a differentiation made between levels of 
performance and those awards that are provided to those 
employees.
    Mr. Michaud. Okay. What's the difference between a 
performance award and a bonus?
    Ms. Farrisee. We don't use the word ``bonus.'' We only use 
the word ``performance award.''
    Mr. Michaud. So just performance award.
    Who's eligible? When you look at this issue, and I actually 
just got--the chairman and I received a letter on the 19th from 
the Senior Executive Association, and actually what was 
interesting in it as I went through, it says, reports for 
claiming large bonuses for Senior Executives at the VA often 
fail to note that few employees on the list provided are Title 
5, which are SESs; that the largest--nearly all the large 
bonuses are for Title 38 employees. So what are the criteria 
used to determine who is provided each? I mean, is it different 
with Title 5 versus Title 38?
    Ms. Farrisee. Congressman, as far as the bonuses for Title 
5 and Title 38, when we look at our SES performance awards 
system, they are the same. They would fall under the same 
categories of outstanding, exceeds fully successful, fully 
successful, and those percentages.
    What is different about Title 38 employees is in addition 
to performance awards, they can receive market pay and a 
performance pay that is based on a separate contract if they 
are a health professional, if they are a physician or a 
dentist, with their superior at the medical center. So they 
have things in addition to Title 5 which are not--they are not 
a part of the performance appraisal SES system that I was 
speaking of.
    Mr. Michaud. Some of the criteria for OPM certification 
includes alignment; that is, linking individual performance 
objective to organizational mission. The second is results; 
that is, performance expectation are linked to outcomes. And 
number three, the overall agency performance that is linked 
between individual performance objectives and overall agency 
performance.
    If VA receives OPM certification, it must have met these 
criteria in aggregate. How do you explain the specific failures 
to this committee that we have discovered recently over the 
past several months?
    Ms. Farrisee. Congressman, as people received awards based 
on their performance appraisal, those decisions were based on 
them meeting critical elements that were written in their 
performance plans and proven by metrics, the words written in 
their performance appraisals by their superior. That is what 
the Performance Review Committee and Performance Review Board 
saw, basically the four corners of the paper, what was written, 
and that's what they went by.
    Mr. Michaud. Okay, thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Mr. Roe, you are recognized for 5 minutes.
    Mr. Roe. Thank the chairman.
    Let me start by asking, I looked from FY 2010 to FY 2013. 
You mentioned in your rating system outstanding and exceeds 
fully successful. I just did the percentages, and they're 
unchanged. You just changed the mix a little bit, and if you 
add the outstanding and exceeds fully successful in 2010, it 
was 73 percent. If you look at 2013, it's 78 percent. Actually 
it went up. So that means there's an expectation, and it varied 
between 75 and 73. So you really didn't change anything other 
than the very top ratings so that the bonus or performance 
award or whatever you want to call it went down just a little 
bit. So fully 80 percent of people last year got an award and 
were exceptional out of the 470. Do you think that's normal in 
business, that every single executive is exceptional?
    Ms. Farrisee. Congressman, I can't answer that question 
about business.
    Mr. Roe. Well, I mean, the awards here seem to say that. I 
mean, if you look at your own data. I'm not making this up. 
This is your data I'm looking at.
    Ms. Farrisee. Congressman, I understand. Based on the 
critical elements in the performance plan for those SESs and 
the results that were on those plans, that is what was----
    Mr. Roe. Well, that means that you put the bar down here 
then so that anybody could step over it. If your metrics are 
low enough that almost everybody exceeds them, then your 
metrics are not very high.
    Ms. Farrisee. Congressman, that is something we should look 
at. Every performance plan is written for the fully successful 
level, and if they exceed that----
    Mr. Roe. I got that. What I want to also understand is--
I've asked this question for the last five or six hearings--is 
that to get a bonus or a performance award, whatever you want 
to call that, do you--is not sending veterans to the outside, 
to private care, is that part of the metric? And no one has 
answered that question. Is it yes or no?
    Ms. Farrisee. Congressman, I don't know, and I'll take that 
for the record.
    Mr. Roe. Okay, thank you for that.
    You mention, or at least it's in the evaluations that you 
have, the elements outlined for--is leading change, leading 
people, business acumen, building coalitions, and results 
driven. Those are the metrics that you go by. What are the 
specifics in there? I mean, how are they set up? I mean, all 
that sounds good, but what do you actually have to do to get a 
$10,000 or in some cases $60,000 bonus?
    Ms. Farrisee. Congressman, in each of the performance 
plans, there is a template that goes out that says the guidance 
for the strategy of VA and what the employees must do to tie 
their organization and individual performance to the strategies 
of VA. That is how it is determined, and if they exceed, there 
are different critical elements, and----
    Mr. Roe. And who decides that?
    Ms. Farrisee. It starts with the Secretary, who will put 
out VA's strategy plan and guidance, and then it is given to 
the administrations. They put additional metrics into their 
template.
    Mr. Roe. Let me ask you this question: If you fraudulent, 
if you knowingly cook the books, as apparently what happened in 
Arizona--because if you do that with the IRS--let me give you 
an example. If you falsely put your claim out with the IRS and 
claim deductions you don't have, let me tell you what's going 
to happen to you. You're going to get penalized, you're going 
to pay the taxes, and you might go to jail.
    Do you think that should happen to people who fraudulently 
put out information that led to the deaths of people, a lot 
worse than not paying your taxes. Do you think that should be 
part of what we should be doing here today, to look at people 
who absolutely played, gamed the system so that they could make 
some extra money, and veterans didn't get care? Because that's 
what will happen to you in other government agencies.
    Ms. Farrisee. Congressman, I believe when these 
investigations are complete that the Acting Secretary will 
ensure there will be accountability for those actions.
    Mr. Roe. That's not an answer. I mean, my answer is 
somebody who--I mean, accountability to what? What does that 
mean? The question I asked is right now today in the IRS, you 
know this, if you and I put something down wrong, and we're 
audited, you know what's going to happen. We're going to pay 
back taxes, we're going to pay penalties, and we might go to 
jail if it's really bad. So the question I have is, should that 
metric, that same standard, apply to people who are in the VA 
who have fraudulently done this, if they have?
    Ms. Farrisee. If given that authority, I am sure it would 
be used, Congressman.
    Mr. Roe. Okay, thank you.
    Mr. Chairman, I yield back.
    The Chairman. Mr. Takano, you're recognized for 5 minutes.
    Mr. Takano. Thank you, Mr. Chairman.
    Ms. Farrisee, can you tell me how many employees under 
Title 5--and Title 5 is what we're talking about, the Title 5 
employees who were involved in the bonus system. I know there's 
Title 38, but the Title 5 employees are the ones who were in 
charge of managing and responsible for the scheduling. How many 
employees received bonuses?
    Ms. Farrisee. Across the complete VA or only SES?
    Mr. Takano. Well, give me the SES number first.
    Ms. Farrisee. Who actually received? Of the--about 78 
percent of the SES, but that includes Title 5 and Title 38.
    Mr. Takano. Okay.
    Ms. Farrisee. And there are Title 5 and Title 38 employees 
at the medical centers.
    Mr. Takano. Okay. But with regard to the accountability for 
the gaming of the system, I'm trying to get a handle on how 
many of the employees are sort of accountable for that. I mean, 
I'm thinking the Title 38 are the providers that--you know, the 
medical practitioners that for other reasons are getting pay 
beyond their base pay, right?
    Ms. Farrisee. Correct, but it is possible there are some 
Title 38 employees involved in the scheduling as well.
    Mr. Takano. Okay. But just give me an idea of how many 
employees were involved.
    Ms. Farrisee. Involved overall? I don't have that number, 
but I'll take it for the record.
    Mr. Takano. Okay.
    Ms. Farrisee. The IG has not completed their investigation, 
so we really probably do not have the final number right now.
    Mr. Takano. Well, how much of the--I mean, we've talked 
somewhat about how the incentives maybe should be based on 
outcomes rather than these metrics, but I'm trying to get a 
handle on why the metrics--we lost control of them. I've heard 
testimony that had to do with the technology, that we didn't 
have a--that we had a scheduling system that was easy to game. 
Is that your assessment, too?
    Ms. Farrisee. I don't know enough about the scheduling 
system to make that assessment.
    Mr. Takano. Okay. Well, because I just wanted--the number 
of employees that were involved just made it very difficult for 
anyone to, you know, look at how people were scheduled, how 
veterans were scheduled, and if there's a lot of employees, I 
can imagine that the scheduling component of the Vista system 
apparently was vulnerable to this sort of gaming. But you don't 
have--this is not in your expertise?
    Ms. Farrisee. Unfortunately it is not, Congressman.
    Mr. Takano. Well, what other incentives could the VA use to 
recruit and retain health care providers beyond bonuses and 
performance pay?
    Ms. Farrisee. We have recruiting incentives, relocation, 
retention incentives once they are on board. We have 
authorities from OPM to give those type of incentives for 
hiring difficult-to-fill positions, difficult locations 
sometimes, and skills.
    Mr. Takano. Well, we know that the VA loses health care 
providers to the DoD. Why hasn't the VA considered increasing 
the base pay of the VA health care employees so that they 
receive comparable pay to the DoD?
    Ms. Farrisee. I'm not aware that it's not comparable pay to 
DoD. I'll have to look at that.
    Mr. Takano. Okay. I would appreciate that. Thanks. I just 
wanted to know if that's true.
    Has the VA considered offering other incentives such as 
loan repayments or increased pay for VA providers willing to 
work in rural and underserved areas?
    Ms. Farrisee. We have not looked at that, Congressman.
    Mr. Takano. Well, that's interesting.
    So my understanding is the rural areas, the rural areas and 
underserved areas, is this typically--well, we don't know 
enough about the investigation to know how this gaming of the 
system sort of matches up, whether we're seeing the 
manipulation of wait times sort of be more prevalent in these 
underserved or rural areas.
    What additional professional opportunities could the VA 
offer its health care providers to recruit and retain those who 
are dedicated to serving veterans?
    Ms. Farrisee. I think we are doing things like market pay, 
which gives them an additional pay to the base pay, the 
performance pay, the contracts that they do with their 
individual superiors. All of that gives them additional pay for 
us to try to meet the external payments. We'll never meet it, 
but we do try to make it more attractive.
    Mr. Takano. Thank you.
    The Chairman. Thank you, Mr. Takano.
    Mr. Runyan, you're recognized for 5 minutes.
    Mr. Runyan. Thank you, Mr. Chairman.
    And it's really two observations, and I want to say there's 
probably not a lot of people--on the basis of what all these 
discussions we're having, I don't think there's a lot of people 
on this committee that really have much faith in a lot of the 
metrics that we use VA-wide, because I know we all go to 
whether it's our health centers or our regional offices and are 
totally confused by any metric they throw at us, and to be able 
to award performance awards off of those type of metrics are 
mind-numbing to me. And to go back to what Dr. Roe really said, 
and I think you testified to it, you're setting out a template, 
the Secretary is setting out a template. How low is that bar 
really?
    Obviously in my past career, we had performance incentives 
all the time. We had several tiers of it. We would have two 
categories would be ``likely to be earned'' and ``unlikely to 
be earned,'' and it would actually count against the salary cap 
of that team. It wasn't either all in or all out; there were 
tiers to it.
    But I just wanted--and I'll end here and I really don't 
have a question. I just want to say; to be able to have 
something you're going to set a bar that low and not be able to 
really truly measure it, incentives are great, and I don't 
think anybody here would agree that uniformly across the VA 
that they're being applied equally. And you've said it, too: 
It's very subjective. The basis of it is getting the facts, and 
I think we're so far away from that at this point, I really 
don't even have a question for you, because until we fix that, 
having the discussion about performance incentives, you can't 
even have the discussion because there's no basis of fact to 
have it on.
    So with that, I yield back, Chairman.
    The Chairman. Thank you very much.
    Ms. Kuster, you're recognized for 5 minutes.
    Ms. Kuster. Thank you very much, Mr. Chairman.
    And thank you for your testimony before us today.
    I'm feeling like we're experiencing what they would call in 
the academic world grade inflation, or what Garrison Keillor 
would refer to as all of the children are above average.
    Coming from the private sector, it's hard for me to believe 
that 80 percent of employees can be either outstanding or this 
other category that is above and beyond what the expectation 
is, and it makes me feel like the expectation is lowered to a 
place that doesn't serve our veterans the way we had wished.
    But I want to focus in on where we go from here and how we 
can fix this problem, because obviously this is a bipartisan 
issue. We are all concerned. Fortunately, this is one of the 
few bipartisan committees where we can work together and make a 
difference.
    My concern lies in how we can fix this situation or help 
the VA to fix this situation, because it doesn't appear that 
the policies provide for a methodology to make this kind of 
change, and by that what I mean is that we have had some 
oversight, but at the end of the day, it doesn't seem to 
change. And I just want to make reference to the VHA is unable 
to assure that although they identify problems, that the 
problems will be corrected and to not recur. This is a review 
of one medical center a year later found the identical 
problems, but it doesn't--you don't end up with a change.
    And I want to focus in on is there ever an opportunity in 
the system that we have now where 80 percent of the people get 
enhanced pay--is there ever an opportunity for reduction or 
denial of this enhanced pay? And just moving forward, now that 
we know what we do know, what will be the consequences to 
people that, frankly, were lying and cheating and stealing both 
veterans' health care and taxpayers' hard-earned dollars?
    Ms. Farrisee. Yes, Congresswoman, thank you for that 
question.
    I do believe there is room for change. Part of that change 
will come with more training of our Senior Executives and 
understanding our critical elements that are put in the 
performance plans in establishing very real goals; and the 
metrics we have talked about, and ensuring that our metrics are 
not too low; that, in fact, you must perform to reach that 
``exceeds'' and that `outstanding' rating; that we pay much 
more attention.
    We have now automated the system of the performance 
appraisal system. I personally could not see them until they 
came into hard copy previously. This is the first year it's an 
automated system; we'll have a chance to look at all the 
metrics in advance. We will do a lot more training with our 
Senior Executives on what these critical elements mean and how 
our Performance Review Committees and Performance Review Boards 
need to view these metrics. I am certain also----
    Ms. Kuster. What about lack of performance? Can someone 
lose their job? Can they get docked pay? Is there any capacity 
in this system to take action when performance is less than 
stellar, which apparently it is for 80 percent of the people?
    Ms. Farrisee. Yes, Congressman, there is absolutely a 
process to do that. You can----
    Ms. Kuster. What does that entail, how someone would get 
fired?
    Ms. Farrisee. It entails proposal of removal, if we are 
talking about removing somebody from the Federal Government. 
That employee would have a right to respond. They get a 30-day 
notice period. Then they can respond orally, say if there's any 
mitigating circumstances. That paper then goes to the deciding 
official, who would take into consideration what the employee 
says. And then a decision maker will make within 30-days a 
decision on the personnel action to happen. Depending on what 
the evidence is for what the employee has done wrong, there is 
a range of things you can do to an employee.
    Ms. Kuster. Well, can I ask you, would criminal conduct be 
evidence of lack of performance?
    Ms. Farrisee. It would be misconduct.
    Ms. Kuster. And would misconduct be sufficient for someone 
to lose their position?
    Ms. Farrisee. If the evidence proves that through 
investigation, yes, that is possible.
    Ms. Kuster. And how about lying to the extent that it 
wasn't a crime, but it was certainly harmful to veterans being 
able to get access to care?
    Ms. Farrisee. There is certainly a range of punishment, and 
depending on all of the details of that, it is possible they 
could be proposed for removal depending, again, on the evidence 
and the details.
    Ms. Kuster. Thank you very much. My time has expired.
    Thank you, Mr. Chair.
    The Chairman. Ms. Kuster, thank you very much.
    Mr. Benishek, you're recognized for 5 minutes.
    Mr. Benishek. Thank you, Mr. Chairman.
    Thank you for being here, Ms. Farrisee.
    Dr. Petzel testified in February of this year in the 
Subcommittee on Health that six SES employees had been 
involuntarily removed in the last two years. However, we've 
tried to get the information as to what the details are of 
that, and we haven't gotten that. Are you aware of this?
    Ms. Farrisee. Congressman, you did receive that yesterday. 
I know it just came yesterday, but the committee did receive 
that from the VA yesterday.
    Mr. Benishek. Okay. So if that's correct that six people 
were removed, and not a single person in the SES received less 
than a satisfactory rating, how does that removal take place?
    Ms. Farrisee. Removals--once they were removed, they did 
not receive a rating, so they would not show up in having 
received a less-than-satisfactory rating. So when you see 
numbers that show no unsatisfactory ratings, it's a little 
misleading because those employees then did not get followed up 
with a rating because----
    Mr. Benishek. So you're telling me that there is actually 
unsatisfactory ratings, but they're just not listed?
    Ms. Farrisee. Congressman, once somebody departs, they do 
not receive that rating.
    Mr. Benishek. That's not accurately depicting what's really 
going on.
    Ms. Farrisee. That is true, Congressman.
    Mr. Benishek. I am kind of concerned, too. Let me ask you 
this question. This is from my briefing here that an SES 
employee works with their supervisor to create a performance 
review plan for each fiscal year, and then they rate their own 
performance on each critical element at the end of each fiscal 
year.
    Ms. Farrisee. Yes, Congressman, and then----
    Mr. Benishek. That's then reviewed by their direct 
supervisor.
    Ms. Farrisee. By their direct supervisor, their rating 
official, and then a reviewing----
    Mr. Benishek. So they rate themselves?
    Ms. Farrisee. They put down all their accomplishments.
    Mr. Benishek. Right. But they rate themselves, according to 
this, right? And then that process is reviewed by their direct 
supervisor?
    Ms. Farrisee. It is, and then it's----
    Mr. Benishek. And that either then is approved or 
disapproved by that direct supervisor?
    Ms. Farrisee. Correct.
    Mr. Benishek. So the direct supervisor doesn't actually 
write the performance review themselves. The actual employee 
writes the performance review and the supervisor just okays it 
or disallows it. Is that what happens?
    Ms. Farrisee. The portion on the appraisal, there is a 
self-assessment on there that is optional, so the employee can 
put a self-assessment in there, but the rating----
    Mr. Benishek. Does that usually occur?
    Ms. Farrisee. I'm sorry?
    Mr. Benishek. Does that usually occur?
    Ms. Farrisee. In some of the ratings. Not all of them.
    Mr. Benishek. Have you ever been involved in this process 
personally?
    Ms. Farrisee. I am just being involved in it since I've 
arrived at the VA personally. I've just finished doing my own 
SES appraisal plan. We are at the point of turning in our plans 
right now. You write your own plan.
    Mr. Benishek. I guess I don't know this. How long have you 
been there?
    Ms. Farrisee. Since September in this role.
    Mr. Benishek. So you haven't been a direct supervisor to 
anyone that's done their own plan yourself?
    Ms. Farrisee. I'm just doing that now.
    Mr. Benishek. You're doing your own plan, but are you 
actually a supervisor, a direct supervisor?
    Ms. Farrisee. I am, and my deputy has provided to me his 
plan. We are not to the point of writing the final appraisal 
yet.
    Mr. Benishek. Do you think this is a good idea, that the 
employee themselves writes their own plan?
    Ms. Farrisee. Well, before----
    Mr. Benishek. I mean, it seems to me that would lead to an 
80 percent percentage of people getting good results.
    Ms. Farrisee. Congressman, I understand, but before that 
plan is written, there is discussion with the ratee and the 
rater. They don't just go off and write a plan without some 
sort of discussion of what's reasonable and what should be 
considered exceptional.
    Mr. Benishek. That's what you say, but the process seems to 
indicate that the guy writes his own plan; if I do this, this, 
and this over the next year, I'll be successful. Then he 
accomplishes that and even better, and then he gets a superior 
rating, you know. I mean, this whole--I mean, the questions 
that have been previously brought up here in the committee tend 
to think that there's not a real rating going on here, it's 
just everybody is getting a good rating. And, you know, I'm 
very concerned with the fact that people are writing their own 
review plan, and it just gets checked by the supervisor, and 
then the numbers that you present to us aren't accurate, and 
zero percent, and there's six people removed.
    And there's inconsistencies in your testimony and in the 
testimony of Dr. Petzel. It's very disturbing to me that here 
we are in the middle of trying to reform the VA, and we get 
inconsistent answers, and it makes us not want to trust 
anything that comes from you people.
    Ms. Farrisee. Mr. Congressman, the numbers that we provided 
as far as the ratings are when there is actually an appraisal 
plan. We did not do those on the individuals who departed. 
That's why they don't show up in the numbers.
    Mr. Benishek. Well, it's very disappointing to me, you 
know, to get these answers from you today.
    I think I'm out of time.
    The Chairman. Thank you, Mr. Benishek.
    Ma'am, you said that the self-evaluation or senior 
executive self-assessment is optional. Are you sure it's 
optional?
    Ms. Farrisee. As part of that plan, there is----
    The Chairman. I'm looking at the performance appraisal 
form, senior executive performance appraisal form.
    Ms. Farrisee. The 3482?
    The Chairman. Yes, 3482.
    Ms. Farrisee. And there are rating official narrative that 
is on----
    The Chairman. Right. I guess what I'm looking at, the only 
place I see that's optional is if the person is asking for a 
higher-level review for their pay, or it's optional to put a 
letter of input, but the other two sections, section 3, senior 
executive self-assessment, does not appear to be optional.
    Form 3482, section 3, senior executive self-assessment. 
Describe your accomplishments, outcomes and results. I think 
you just told Mr. Benishek that was optional. Is it?
    Ms. Farrisee. I'm going to take that back and say I may 
have misspoken. Can I get back with you on this, Chairman?
    The Chairman. Yes, you can.
    Thank you very much.
    Ms. Brownley.
    Ms. Brownley. Thank you, Mr. Chairman.
    Thank you, Ms. Farrisee.
    So now I understand you've been in this position for a 
short period of time. Were you in human resources with the VA 
prior to?
    Ms. Farrisee. I was not. I retired from the Army.
    Ms. Brownley. Thank you.
    So it's been widely reported in newspapers that the 
Regional Director in Pittsburgh, I think, received a 
performance pay award of $62,000. You're aware of that?
    Ms. Farrisee. I am aware of that.
    Ms. Brownley. So I'm just trying to do the calculations 
here, and I will add, $62,000, the median income in the county 
that I represent is $76,000, so I just want to state that for 
the record.
    But so if you--if this employee received $62,000 in a 
bonus, and in your testimony you said that the performance pay 
cannot exceed 20 percent of the base salary for an SES 
employee, then if you do the math on that, then the base salary 
is over $300,000.
    Ms. Farrisee. Yes, Congresswoman. That award was because of 
a Presidential Rank Award.
    Ms. Brownley. And what's special about that?
    Ms. Farrisee. Very few of those are given each year and----
    Ms. Brownley. So that doesn't follow any of the rules that 
we have been talking about?
    Ms. Farrisee. It is not an award given by the VA.
    Ms. Brownley. I see.
    So I know this hearing is about performance pay, but there 
is also a retention incentive pay?
    Ms. Farrisee. Yes, Congresswoman.
    Ms. Brownley. And so the process for awarding retention 
incentives, I presume, differs from performance pay incentives. 
And so do you have the information on what percentage of SES 
employees received retention incentives last year? Is that--can 
they receive both retention pay and performance pay?
    Ms. Farrisee. They can receive both, Congresswoman. We 
currently have 40 SESs out of the 470-some SESs who receive 
retention incentives.
    Ms. Brownley. And is there a cannot exceed percent for 
retention pay?
    Ms. Farrisee. There is.
    Ms. Brownley. What is that?
    Ms. Farrisee. Twenty-five percent of their salary per year, 
and it can be given up to four years.
    Ms. Brownley. Are there other kinds of awards that we're 
not aware of beyond performance and retention?
    Ms. Farrisee. Relocation incentives. If you are asking--
reassigning someone, you can offer a relocation incentive, and 
a recruitment incentive for people new joining the agency.
    Ms. Brownley. And the--is there a cannot exceed percentage?
    Ms. Farrisee. On all of them there is a percentage and a 
number of years it can be given. That is across the Federal 
Government.
    Ms. Brownley. In 2010, the VA did its own review. Can you 
just describe what specific actions the VA took to reform and 
restructure the SES bonus structure from the results of their 
own internal review?
    Ms. Farrisee. I'll have to take that for the record, 
Congresswoman.
    Ms. Brownley. Similarly, a GAO report in 2013, and I wanted 
to know what specific action has the VA taken to improve the 
performance pay policy since that was issued?
    Ms. Farrisee. We updated our handbook that was missing some 
very key points that the GAO pointed out, and we put out an 
updated handbook in March to include everything they asked us 
to include.
    Ms. Brownley. Can you just describe some of those elements?
    Ms. Farrisee. One of the elements was not meeting a 90-day 
time frame in which you would counsel and talk about this 
performance pay. It has to be put in a plan that has to be done 
within 90 days. We did not have a time frame in the handbook. 
Things were not being done according to policy.
    Ms. Brownley. And finally, can you--have you--as the 
Assistant Secretary for Human Resources and Administration, and 
given the situation that we are in currently, have you been 
able to assess the IG's ability to investigate this just in 
terms of personnel in human resources, and do you believe that 
they have enough resources to do this?
    Ms. Farrisee. Congresswoman, I cannot personally assess it, 
but I have heard the IG in testimony say that he has enough 
resources to do this.
    Ms. Brownley. But you don't do that as a practice to review 
their resources?
    Ms. Farrisee. Not the IG's, no, ma'am.
    Ms. Brownley. Thank you. I yield back.
    The Chairman. Thank you very much.
    Mr. Wenstrup, you're recognized for 5 minutes.
    Mr. Wenstrup. I thank you, Mr. Chairman.
    I have some questions concerning the whole evaluation 
system. And I guess I'd like to compare it to how the military 
does it for officers. And, you know, you can do a support form, 
you fill out a support form for your superiors, you talk about 
what your goals were for the year, whatever the case may be. 
So, as I understand it, that would be part of the process----
    Ms. Farrisee. It is.
    Mr. Wenstrup [continuing]. Currently.
    And, you know, through the process with the military, you 
do have meetings periodically with your rater to see if you are 
achieving those goals. It also gives the rater the opportunity 
to add other goals that you may want to put in there. Does that 
take place?
    Ms. Farrisee. That is correct.
    Mr. Wenstrup. Okay.
    Do you think that there's a point in time where the 
person's just pretty much writing their own evaluation, sending 
it electronically, and maybe the rater is just cutting and 
pasting and putting it in there and sending it off approved? Do 
you think that happens within the system? I know you haven't 
been there very long.
    Ms. Farrisee. I haven't, so I cannot comment that it does 
or doesn't happen.
    Mr. Wenstrup. Okay. Because that would be a concern of 
mine, that this is just kind of a network here. You know, why 
don't you just fill it out, send it along to me, and we'll be 
okay.
    I'm also wondering how much the VA's core values come into 
play when it comes to evaluation. Can you tell everyone what 
those core values are?
    Ms. Farrisee. We have core values: ICARE, or integrity, 
commitment, advocacy, respect, and excellence. That is a part 
of our performance appraisal plan.
    Mr. Wenstrup. Is there a part in there where the rater then 
can take those values and comment on those values on that 
person?
    Ms. Farrisee. Yes, there is.
    Mr. Wenstrup. Because it seems to me that some of the 
people, especially the part on integrity, really fell short and 
yet some people got their performance payment. Would that be 
correct?
    Ms. Farrisee. Congressman, at the time it was written, we 
may not have understood there was an integrity problem. If that 
were to be written right now, once the investigation is 
complete, I would expect to see that.
    Mr. Wenstrup. Okay. Well, I was really just trying to 
understand your process more, I think.
    And I yield back.
    Ms. Farrisee. Thank you, Congressman.
    The Chairman. Thank you very much.
    Mr. Ruiz, you are recognized for 5 minutes.
    Mr. Ruiz. Thank you, Mr. Chairman, for holding this 
hearing.
    Thank you for being here.
    We know, based on the latest data released in the VA Access 
Audit, that 46,400 veterans who enrolled in the VA health 
system in the past 10-years haven't received appointments and 
that more than 56,200 veterans have been waiting more than 90 
days for their first appointment at a VA medical facility.
    Unconscionably, senior executive who oversaw health care 
facilities with manipulated data were awarded bonuses, based, 
in part, on faulty wait times and, as Mr. Wenstrup said, 
clearly demonstrating a lack of integrity.
    As an emergency physician, I am appalled by the thought of 
VA officials covering up the fact that they are not providing 
much-needed medical care to our veterans and still obtaining 
bonuses.
    So, in an effort to get to the bottom of this reprehensible 
behavior and ensure these executives are held responsible, I 
would like to know in what year bonuses started being tied to 
scheduling metrics.
    Ms. Farrisee. I'll have to take that for the record.
    Mr. Ruiz. It's important to know, because then you can 
clearly see the difference between pre-bonus and post-bonus. 
And things don't move very fast in the VA, including behaviors 
and performances, so it would be very important to determine 
which facilities had those drastic changes.
    Also, I spoke to some of my veterans back home. There's a 
veteran, Major Bill Young, a very well-respected man, good 
human being. And he is in line with the veteran-centered 
approach, which I absolutely agree with. And his question is, 
are there any bonuses based on patient satisfaction feedback?
    Ms. Farrisee. I'll have to take that for the record to see 
if that is a metric in any of the appraisals.
    Mr. Ruiz. Okay. I think that there's a--we need a very 
drastic cultural change so that when that question is asked 
again it should be in the top three answers as to what our VA 
personnel are measured against. Number one, two, and three, a 
patient-centered, patient-feedback bonus. Okay?
    And has there been any analysis of the effect of bonuses on 
scheduling metrics?
    Ms. Farrisee. There has not been analysis to this point.
    Mr. Ruiz. Okay.
    What was the exact criteria for awarding these bonuses 
regarding scheduling metrics?
    Ms. Farrisee. The scheduling metric, to my understanding, 
was to have the schedule within the 14-day time period.
    Mr. Ruiz. Okay.
    And, you know, I think my closing comments here--and we are 
talking about bonuses. You know, my father worked in the 
fields--hard manual labor. He was a mechanic, he was a truck 
driver. He did whatever it took to put food on my table and to 
pay for our education, something he didn't have. And he taught 
me the value of an honest day's work. And he said, son, 
whatever you do in life, just work hard, be the best at it.
    And honesty and integrity are the values of this country, 
and those are the values that America was founded on. And lying 
to get a bonus flies in the face of our values as Americans. 
And I think that we really need to have some introspection 
within the VA system to come back to those root values that 
make this country great.
    Thank you, and I yield back my time.
    The Chairman. Thank you very much, Doctor.
    Mr. Cook, you are recognized for 5 minutes.
    Mr. Cook. Thank you, Mr. Chair.
    There has been some conversation about, once the evaluation 
report is written, that you cannot undo that. Can't you have a 
supplemental or a special fitness report, per se, based upon 
certain circumstances under somebody's watch?
    Ms. Farrisee. I'm not aware of doing one in addition to 
their annual appraisal.
    Mr. Cook. So if something like this happens that shows the 
character or unsatisfactory performance, there's nothing that 
goes in the jacket of that individual that gets these bonuses 
or what have you?
    Ms. Farrisee. That would be included in their current-year 
appraisal----
    Mr. Cook. No, no, I'm talking about, because of what 
happened and things that happened on their watch, that they get 
a special fitness report based upon unsatisfactory performance.
    No? Okay.
    I just want to go on to a couple of things here.
    We had a number of veterans testify, I don't know, maybe 
six weeks. And I asked them--basically, I was using the 
comparison of the military being, you know, fully combat-ready 
or non-combat-ready. And I used it analogous to the VA. And 
everybody was here. And across the board, everybody went down 
the line and basically said they're not mission-capable, which 
everyone here, I think, has that same agreement.
    But it seems as though mission--and we've talked about 
mission performance standards and everything, but we don't 
apply them. We're not taking care of veterans. That is the 
bottom line. And we're talking about all these intangibles, and 
we're not doing the job we're supposed to do.
    I want to ask you, have you ever heard the term ``truth-
teller''?
    Ms. Farrisee. ``Truth-''----
    Mr. Cook. ``-Teller.'' ``Truth-teller.''
    In the military, at least in the Marine Corps, you know, 
you had great--everybody's outstanding, you know, you write 
your own evaluation report, you love yourself, blah, blah, 
blah, blah. A truth-teller takes everybody that's in the same 
rank, whoever is writing the evaluation, and you have to list 
them: one, two, three, four, or five. Because everybody is 
outstanding.
    And everybody here is outstanding. But some people are 
better than others. And that evaluator has to do that. And I 
don't see that happening. I think you need--if you're going to 
give everybody bonuses on being outstanding and you rate 
everybody outstanding.
    Let me ask you a question. Have you ever heard of the term 
``BENESUG''?
    Ms. Farrisee. No, Congressman, I haven't.
    Mr. Cook. All right. ``BENESUG''--maybe, I don't know, I 
guess if you're old or been around a long time. ``BENESUG'' 
meant ``beneficial suggestion.'' It was in at least the Marine 
Corps; I thought it was in the Army. It's a beneficial 
suggestion, where you might get a promotion, you might get a 
bonus. And a suggestion normally from one of the troops that 
knows what's going on. ``Hey, the scheduling system is all 
screwed up for the following reasons, and this should be 
changed,'' blah, blah, blah, blah, blah.
    Instead of giving ratings to everybody outstanding, I think 
you ought to look at this, where the people that deal with this 
have an incentive to change it, instead of an automatic bonus, 
if you will, that, quite frankly, when you do that, I think it 
makes it ridiculous, when a lot of people in this room, even 
the veterans themselves, think that the Veterans Administration 
is not performing the services that they're supposed to.
    I got a--let's see. Going into some of the other things, I 
had my--you talked about core values and everything else. Now, 
in the evaluation system, going back to mission performance 
standards, about taking care of the veterans, is that part or 
spelled out? Is that the bottom line on the evaluation? You 
know, because integrity is open to interpretation, but this is 
a ``yes'' or ``no.'' Is this organization, or your 
organization, fully capable of taking care of veterans, and 
have they done that? Is that part of the evaluation system or 
the evaluative process?
    Ms. Farrisee. Not stated in those words, but it is part of 
the process.
    Mr. Cook. It's not stated----
    Ms. Farrisee. In the exact words you just said, but our 
mission is to take care of veterans.
    Mr. Cook. Do you think that's got to be reinforced over and 
over again? Because right now, from a cultural standpoint, it 
doesn't seem to be happening. You go back down there and you 
start with that premise.
    It's like we talked a lot about taking care of veterans, 
taking care of people on the battlefield, band of brothers, 
band of sisters, et cetera, that's what holds the military and 
the veterans together.
    Ms. Farrisee. Congressman, I believe that the majority of 
our employees do advocate for our veterans.
    Mr. Cook. Okay.
    I yield back. Thank you.
    The Chairman. Thank you very much, Colonel.
    Mr. O'Rourke for 5 minutes.
    Mr. O'Rourke. Thank you, Mr. Chairman.
    And I'd like to start by continuing a line of questioning 
begun by Mr. Roe and Mr. Takano and others and look at the 
local VHA facility level, the hospital or the clinic. And so 
many of us are concerned about a provider shortage and what it 
will take to attract and retain the best talent possible to 
serve the veterans that we represent.
    And so I'd like to understand how salaries and incentives 
are set for the providers, the doctors, psychiatrists, nurses, 
nurse practitioners, and others who actually provide the care 
to our veterans.
    Ms. Farrisee. It is a complex process of calculations on 
market pay so that we can look at what the national pay is and 
that is used in calculating what we recommend for pay. It's in 
addition to a base pay. So if we are talking about SESs and we 
talk about a Title 5, there is no addition to any of their base 
pay. Our Title 38, which are our physicians and dentists, will 
receive in addition to that base pay this market pay, which we 
must do these calculations to.
    And then, also, they can receive a performance pay that has 
nothing to do with an award of performance, but it is a 
contract and objectives that they must meet in order to receive 
that performance pay.
    Mr. O'Rourke. And so, apart from the formulas and the 
calculations, does the local VHA director have discretion to 
deviate from those formulas to attract or retain somebody who's 
needed in that community?
    Ms. Farrisee. They can request recruitment incentives, and 
they can request relocation incentives or retention incentives. 
If it's someone that they have already on board they want to 
keep, they can request those type of incentives.
    Mr. O'Rourke. And is there any--I want to make sure I'm 
using the right words; we don't use ``bonus''--but any 
incentive offered to a VHA director for returning money back to 
the VA or coming in annually under budget or not spending a 
certain amount or over a certain amount in a certain category?
    Ms. Farrisee. There is not--I would not say an incentive.
    Mr. O'Rourke. So no part of a VHA director's performance 
incentive is based on how they performed financially?
    Ms. Farrisee. They would need to stay within budget, 
absolutely, but----
    Mr. O'Rourke. So there's a penalty for going over but no 
reward for coming under.
    Ms. Farrisee. Not that I'm aware of.
    Mr. O'Rourke. Okay.
    One of the things we're trying to figure out in El Paso 
is--I've brought this up repeatedly at this committee. We have 
a mental health care crisis and one that was confirmed by the 
VHA audit release last week that showed we are the worst in the 
country for setting an appointment for an existing veteran 
patient within the VA for mental health care, fourth worse for 
new patients, second worst for specialty care.
    And for those of us in El Paso, it's not a surprise. We've 
known it for a while. And what we've been told, as providers 
and others within the VA in El Paso and the VISN 18 that we're 
in start to come to our office, in many cases anonymously, is a 
deep concern that the director is not providing those 
discretionary incentives to attract and retain people.
    So if we have these terrible performance measures in terms 
of being able to connect a veteran with an appointment, if we 
have a provider shortage--it was 19\1/2\ full-time employees 
when I started a year and a half ago; it was 13\1/2\ as of last 
month--I'm wondering how we can provide greater incentives or 
leverage or discretion to the local director to bonus or incent 
providers to get them or keep them in the first place.
    Any thoughts on how you might be able to do that, how the 
administration might be able to do that, or how we on the 
committee who are interested in this might propose if we need 
to change legislation to do this?
    Ms. Farrisee. I would need to know what incentives they 
have already attempted to do, if they have, or if there is 
anything we can do to help them look at those incentives.
    Mr. O'Rourke. We, again, had an acute issue--have an acute 
issue when it comes to providing mental health care at the El 
Paso VA. And we were told by an anonymous source within the 
VISN that, until we really started to push on the director, he 
had not once deviated from the formula recommendation for what 
you pay someone to practice medicine at the VA in El Paso. And 
it was only through our pressure that there was this one 
deviation that ended up in hiring a much-needed psychiatrist to 
El Paso.
    It's very hard to get direct answers from the local VHA and 
even through the administration, as we've seen. I look forward 
to following up with you to find out what those formulas are, 
how we improve them or change them, what discretion there is, 
and how we hold people accountable for their performance, given 
the discretion and power that they already have.
    Ms. Farrisee. Yes, Congressman.
    Mr. O'Rourke. Mr. Chair, I yield back.
    The Chairman. Thank you very much.
    Ms. Walorski, you're recognized for 5 minutes.
    Ms. Walorski. Thank you, Mr. Chairman.
    Thank you, ma'am, for being here.
    You talked in your opening statement about stringent 
controls, clear standards. In your opinion--on these 
performance awards. In your opinion, what happened?
    Ms. Farrisee. On the awards?
    Ms. Walorski. On the performance awards. How do we go from 
your opening statement of stringent controls and clear 
standards and end up over here with this massive amount of 
money and the revelation of Presidential awards and all these 
other awards, 20 and 25 percent of income, the 80 percent 
amount of people who receive them?
    Was there any red flag? I know you've only been there since 
September, but when you came in and just over the past several 
months, as you look at this structure, were there any red flags 
or alarms or inklings or gut feelings or anything that says, 
``Wow, this is a lot of money,'' or anything to set off a red 
flag in your mind that something is really, really wrong? 
Because it seems like it got away from the stringent controls 
and clear standards.
    Ms. Farrisee. Congresswoman, what I said in my opening 
remarks was we needed to have precise and stringent and clear 
standards. I feel that is what we need to do from here forward. 
I think we do need more stringent and precise written 
performance plans so that when you have----
    Ms. Walorski. But my question is, were you aware of that 
prior to this whole blowup in the VA, that there was something 
out of line with the performance bonuses and that that's why 
you needed the stringent controls and the clear standards?
    Ms. Farrisee. No, it was because--prior to this year, we 
did not have an automated system, so you could not see these in 
advance. So having the opportunity to see these in advance and 
be able to look at these across the board prior to the end of 
the year I thought would allow us to have a better look and 
more precisely see, if we do have the correct metrics, if the 
right things are being done.
    Ms. Walorski. So I have a question on the Presidential 
award. The Presidential award doesn't come out of VA budget, 
correct? It comes out--whose budget does it come out of?
    Ms. Farrisee. I'm not sure. I'll come back to you on that.
    Ms. Walorski. Okay. And so, is there an allotment of money? 
Do we know how many people--how many employees we have that 
receive the Presidential award?
    Ms. Farrisee. Oh, very--very few. But I will get you that 
number.
    Ms. Walorski. Okay.
    Ms. Farrisee. It's a very minimum amount across the Federal 
Government.
    Ms. Walorski. Okay. I appreciate it.
    Ms. Walorski. Could you also then get me for the State of 
Indiana a list of all the SES-level employees and for the past 
5 years what their performance bonuses have been, as well?
    Ms. Farrisee. I will gather that information, and if it is 
releasable, absolutely, we'll release it to you.
    Ms. Walorski. Okay. Do you know how long it'll take to get 
that, ballpark?
    Ms. Farrisee. A couple weeks?
    Ms. Walorski. Okay.
    And so, as you look at this, as we move forward and we look 
at this whole question, you know, I echo Representative Ruiz's 
question about when these incentives started, when was this 
thing tied to the matrix of the appointment times.
    And then, also, I'm just curious, when we look at this--and 
I had heard just, I think, in some of the news report that this 
has only been in effect for a couple of years. But when we look 
at, like, a place like Phoenix, where over the last 3 years 
there has been something like $10 million in bonuses, I am 
trying to get my arms around why that didn't send signals or 
red flags somewhere in this system of the performance bonuses. 
It's such an inordinate amount of money even for just one place 
where this whole thing started with the investigation. It's 
unbelievable, the amount of money that has gone into this 
system.
    Ms. Farrisee. I've not confirmed that amount that's been 
spent in Phoenix, so I have to go back and confirm that.
    Ms. Walorski. Okay.
    And then, also, when you send the information on the 
Presidential bonuses, what I want to know is what budget it 
comes from, is there a cap on how much money comes from a 
Presidential bonus, how many people have received it, for how 
many years do they get it, just the details of that. I'd 
appreciate it.
    Ms. Farrisee. Yes, Congresswoman.
    Ms. Walorski. Thank you.
    I yield back my time.
    The Chairman. Thank you very much.
    Ms. Farrisee, I appreciate your legal answer, if it's 
releasable, you will get it to Mrs. Walorski. Let's make a 
deal. If you don't, we will subpoena it.
    Ms. Farrisee. I understand, Chairman.
    The Chairman. Okay. Thank you very much.
    Ms. Titus for 5 minutes.
    Ms. Titus. Thank you, Mr. Chairman.
    I just want to echo some of the comments that have already 
been made by my colleagues and the concern about performance 
awards going to people who may or may not have earned them.
    I think it was the chairman who pointed out earlier that 
the Director of VISN 21, which oversees part of Nevada, turns 
out had put false information on a resume, where she'd gone to 
school or that she had gone to school, but she rose all the way 
through the ranks to be the Director of that VISN. And that's 
an enormous task, overseeing tens of thousands of veterans that 
stretches all the way from Guam to Reno.
    I'd wonder if you could tell us how you verify people's 
resumes or, when they file applications, how do you look to be 
sure that this wouldn't happen again.
    And this woman also received these bonuses as she moved up 
the ladder. I think she's having to give some of them back now. 
But could you address that issue for us?
    Ms. Farrisee. Congresswoman, when we receive resumes, we 
call references, we do background checks. I have just heard of 
this recently this week, so I've not had the opportunity to 
look into that matter.
    Ms. Titus. Well, when you look into it, would you get that 
back to us?
    Ms. Farrisee. Yes, Congresswoman.
    Ms. Titus. Thank you.
    Ms. Titus. And then just kind of along those same lines, 
the Regional Office in Reno serves all the veterans of Las 
Vegas, which is where most of the veterans are in the State, 
but the office is in Reno.
    I'm just wondering if, given the fact that that was one of 
the fifth--I think it was the fifth worst but one of the worst 
in the country for the backlog--backlogs there took over 500 
days. The way you reduced the backlog there was brokering out 
over half of the cases to other places around the country. 
You've hired 25 new people, finally, after we've been harping 
about this for a year and a half. Those are now in southern 
Nevada, but they're overseen over the telephone by somebody 
who's still in Reno. This person's had a number of problems. 
Surely, this is not a record of success.
    Can you tell me if there's anybody in that Reno office who 
has gotten any of these performance bonuses over the last 
couple of years?
    Ms. Farrisee. I'll have to get back to you on that, 
Congresswoman.
    Ms. Titus. Okay. And, also, recruitment incentives, I'd 
like to find out if they've gotten any of those incentives in 
addition to just a bonus.
    Ms. Farrisee. Yes, Congresswoman.
    Ms. Titus. And would you get back to me on that pretty 
soon?
    Ms. Farrisee. Yes, I will.
    Ms. Titus. Thank you very much.
    I yield back.
    The Chairman. Thank you, Ms. Titus.
    Mr. Coffman for 5 minutes.
    Mr. Coffman. Thank you, Mr. Chairman.
    Well, I certainly thank you for being here before this 
committee here today.
    And if I understand it correctly, you kind of oversee the 
personnel system within the Department of Veterans Affairs, and 
as part of that is this performance pay system or this bonus 
system. Am I correct in that?
    Ms. Farrisee. You are correct, Congressman.
    Mr. Coffman. Good.
    Can you tell me how this bonus performance pay system works 
for veterans when they're serving on Active Duty? Can you tell 
me how that process works for them?
    Ms. Farrisee. Some Active Duty soldiers receive bonuses 
based on their specialty, but the majority of Active Duty 
soldiers don't receive bonuses.
    Mr. Coffman. But on performance, can you tell me how the 
bonus structure works for performance for Active Duty military?
    Ms. Farrisee. There is no performance----
    Mr. Coffman. That's correct.
    Now, can you tell me about your own military service?
    Ms. Farrisee. I spent 34 years in the Army.
    Mr. Coffman. I mean, that's amazing, that you would serve 
this country in uniform and yet you would be so tolerant to how 
this department treats our veterans. I think it's just 
absolutely extraordinary that--how can somebody go from the 
United States Army to this environment and yet not take the 
values from the United States Army into serving our Nation's 
veterans? I think it's just absolutely extraordinary.
    And so, as you know, bonuses, if we do call them that for 
enlistment and reenlistment purposes, are based strictly on 
occupational specialties. When people perform in the military, 
they're rewarded through promotion, they're rewarded through 
various awards, but they are not financially driven, as they 
are in this department, which you seem to defend, this 
extraordinary system.
    It just seems to be the only thing that the Department of 
Veterans Affairs is effective at doing is writing bonus checks 
to each other, those that are in leadership. I just think that 
that is stunning. Certainly not serving our veterans, not 
providing a claims process that is at all expedient, not 
providing the health care that they have earned, you know, 
certainly fudging wait times to get these bonuses, which you 
don't seem to want to come down on these people for doing.
    You ought to be outraged. You ought to be outraged at the 
manner that these veterans are treated. Based on your own 
background, you ought to be outraged. But you're not. It's all 
status quo to you. It's all, all things are good, maybe they 
could be a little bit better, but things are good.
    Things aren't good. This is the most mismanaged agency in 
the Federal Government. Yet it is entrusted with honoring our 
commitment to those men and women who have made extraordinary 
sacrifices on behalf of this country. And I've got to tell you, 
I think we'll be better served as a Nation when you are working 
outside of the Veterans Administration and not inside the 
Veterans Administration.
    Mr. Chairman, I yield back.
    The Chairman. Mr. Jolly, you are recognized for 5 minutes.
    Mr. Jolly. Thank you, Mr. Chairman.
    As Assistant Secretary for Human Resources, I'm sure much 
of the conversation today is not a case of first impression. 
The conversation is about metrics and what are appropriate 
metrics and how they are reviewed.
    I presume there have been many conversations within the 
Department already, in the wake of the crisis, about how 
performance awards are distributed and based upon which 
metrics. Is that an accurate assumption?
    Ms. Farrisee. So much so that the Acting Secretary has 
already said there will be no awards----
    Mr. Jolly. Right.
    Ms. Farrisee [continuing]. For VHA.
    Mr. Jolly. So, within those discussions or based on your 
knowledge, and even if it's not factual, even if it's hearsay, 
are you aware of any metric that's been included in any 
executive's bonus or performance award system reducing the 
incidence of non-VA care at a facility?
    Ms. Farrisee. I am not aware, to my knowledge, that they've 
rewritten metrics at this point, other than taking out the 14-
day----
    Mr. Jolly. No, I don't mean rewritten. I mean from existing 
bonus plans and identifiable metrics from 2010 to 2013, 
whatever's been reviewed, or generally, are you aware of any 
metric that's been used to award a bonus based on reduce in the 
incidence of referral to non-VA care?
    Ms. Farrisee. I'm not. I'll have to get back to you on 
that.
    Mr. Jolly. Okay. Is it something that could be looked at to 
see if that's----
    Ms. Farrisee. It certainly can be looked at, yes, 
Congressman.
    Mr. Jolly. Okay. To document it for the record, if I were 
to send a letter, would it be appropriate to send that to you?
    Ms. Farrisee. Yes, Congressman, that's fine.
    Mr. Jolly. Okay.
    And I think Mr. O'Rourke asked the question about reducing 
costs. That's not a metric that you're aware of either?
    Ms. Farrisee. It's just that I'm not aware of it.
    Mr. Jolly. Sure, sure.
    Ms. Farrisee. It doesn't mean it's not there.
    Mr. Jolly. I understand.
    The last question is this, and maybe you can clarify it a 
little bit, but you referred to almost an expansion of the 
review process, an additional layer of review that's been built 
in. And you've been there since September, and so maybe it's 
just a question about your impression. And this really isn't a 
VA question, but we often are asked--I ask the question all the 
time, I know a number of constituents do--how does government 
get so big?
    It seems like there is an awful lot of money being spent on 
a very dense, bureaucratic process to ultimately come out at 
the back end and provide these performance awards. Can we do 
better? Is there a better way to streamline this? Can we reduce 
employees actually assigned to the bonus process?
    I mean, just based on what you said, and maybe you can 
clarify it, it seems like there is a lot of bureaucratic 
infrastructure behind the process of determining what metrics 
need to be met and evaluating those metrics, which at the end 
of the day, as we've heard a thousand times, everybody's on the 
right side of the curb and everybody's determined to be above 
average.
    Can we save money?
    Ms. Farrisee. Congressman, I concur it is worth looking at 
streamlining this process.
    Mr. Jolly. Do you know if the Acting Secretary is looking 
at streamlining the process?
    Ms. Farrisee. At this time, I don't think that's where his 
attention is, but we will definitely discuss it.
    Mr. Jolly. Okay. Thank you very much.
    Mr. Chairman, I yield back.
    The Chairman. Thank you very much.
    Mr. Huelskamp for 5 minutes.
    Mr. Huelskamp. Thank you, Mr. Chairman.
    And I appreciate you being here today, Madam Secretary.
    Don't you think retaining one's salary is enough incentive 
for an SES employee to do their job?
    Ms. Farrisee. That would be my personal opinion, but I 
cannot tell you how everybody feels. I've just joined the ranks 
of the civilian employment.
    Mr. Huelskamp. Yeah, and you're here to answer those 
questions about that.
    Now, the announcement, can you describe again--I'm unclear 
on this announcement about these SES bonuses in the future, how 
will they be handled. And they're suspended, deferred?
    Ms. Farrisee. The Acting Secretary has suspended any awards 
for 2014 for our SESs in our Veterans Health Administration.
    Mr. Huelskamp. You also state that they're critical to 
retention and performance. So does that mean you're going to 
lose employees and performance will go down with this 
announcement?
    Ms. Farrisee. There is always that probability.
    Mr. Huelskamp. Do you think that will happen?
    Ms. Farrisee. We did that last year with our Veterans 
Benefit Administration. I do not think we lost a lot of people 
because of that.
    Mr. Huelskamp. Okay.
    You also made reference earlier to a deferred list on 
bonuses. Can you describe that again? I didn't understand that 
concept there.
    Ms. Farrisee. Yes, Congressman.
    At the end of every year, once the appraisals are complete, 
we ensure that we do a check with the IG, with EEO, to ensure 
that we don't have any of our SESs who are on what we consider 
a bad list, they're under investigation, there's anything 
possibly derogatory.
    The IG provided us a list of 13 names. We then defer the 
rating. So they have received an appraisal, performance, and so 
they have a rating, but that rating is held until such time as 
the investigation is complete. And then that will go to the 
Secretary to receive the results of the investigation, to see 
the original rating that the employee received, and make a 
determination if that rating should be changed based on the 
results of the investigation.
    Mr. Huelskamp. And I think I speak for most of my 
constituents, as well, that until the veterans waiting list is 
shorter than the deferred bonus list, probably no reason to 
move forward on the bonuses.
    May 7th, 2013, a Mr. Glenn Haggstrom was before the 
committee. And he was the gentleman in charge of overseeing 
construction projects, which I think we determined at the 
committee hearing had massive failures, massive cost overruns. 
The bonus issue came up with him, I believe, as an SES 
executive, and I asked Mr. Haggstrom a lot of questions. And I 
asked him exactly why did he get the bonuses. It was some 
pretty massive bonuses for three years. And, Madam Secretary, 
he said he had no idea. He had no idea.
    How is there a connection between performance when, shazam, 
the bonus just shows up in a paycheck? Are there personal 
visits every time between the immediate supervisor and folks 
like Glenn Haggstrom, or is it simply paperwork?
    Ms. Farrisee. There should be a personal visit. I cannot 
confirm that there is. They should have seen the rating and 
understand that the rating that they received is what is tied 
to the award amount. Depending on your rating depends on what 
percentage of an award you receive. And that rating is based on 
their performance.
    Mr. Huelskamp. Well, according to Mr. Haggstrom's testimony 
on May 7th, 2013, there was no such visit, no such 
communication, and no connection, obviously, between 
performance and retention and his pretty significant bonuses.
    Is that required in the rules and regulations, that there's 
an actual meeting?
    Ms. Farrisee. I do not believe a meeting is required.
    Mr. Huelskamp. No required meeting. So exactly how does 
this improve performance if there--and no understanding of 
that?
    I mean, well, I presume--and you've only been there nine 
months. And most of these--I guess there was end-of-the-year 
December evaluations for most of these folks, correct? And so 
you've been through that with your folks immediately below you, 
right?
    Ms. Farrisee. No. They were just receiving their final 
evaluation when I arrived.
    Mr. Huelskamp. Midyear evaluations, you didn't go into 
this?
    Ms. Farrisee. Oh, midyear. We're going through that right 
now. Yes, Congressman.
    Mr. Huelskamp. Okay. So the December evaluations, I 
understood from--you didn't go through the midyear--the 
December evaluations? Or who did those?
    Ms. Farrisee. We didn't--we do midyear about now, just in 
the last 30 days. It's not in December. It's----
    Mr. Huelskamp. Okay. Well, end of the year is December. 
What did you do during those evaluation? Did you meet with your 
folks that worked for you?
    Ms. Farrisee. That's happening now.
    Mr. Huelskamp. Okay. Well, midyear is usually--you went 
through this in December, though, correct? You came in 
September?
    Ms. Farrisee. I came in September, but----
    Mr. Huelskamp. No end-year, no one else?
    Ms. Farrisee. Not in December. In fact, in December, we 
were just completing our performance review committees and 
performance review boards for the end of 2013 fiscal year.
    Mr. Huelskamp. So you do those in June midyear, and then 
there's--is it just once a year?
    Ms. Farrisee. Just one midyear. But you can counsel and 
discuss with your employees----
    Mr. Huelskamp. But the end of the year?
    Ms. Farrisee. October--September 30th.
    Mr. Huelskamp. Oh, okay. So your predecessor went through 
that.
    Ms. Farrisee. Correct.
    Mr. Huelskamp. And then you came in there.
    So your predecessor was how long in the position?
    Ms. Farrisee. It was an acting, and I think he was there 
about a little over a year.
    Mr. Huelskamp. Okay.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you very much, Mr. Huelskamp.
    Thank you, everybody, for being here today.
    I have two quick questions, if you would.
    Yesterday, after requests being made at three separate 
hearings by members of this committee, multiple staff requests, 
the VA did finally provide us limited information on the six 
members of the SES who were supposedly fired last year.
    Subsequent to this information, the staff has requested a 
briefing on that. Can I have your commitment that that briefing 
can take place within the week?
    Ms. Farrisee. Yes, Mr. Chairman. Next week we will have 
this briefing.
    The Chairman. And as the senior HR official at VA, can you 
tell this committee if you think that Susan Bowers should have 
given--what we know now--should have given Ms. Helman a ``fully 
successful'' or higher review for last year?
    Ms. Farrisee. Not if she knew what we know now.
    The Chairman. Okay.
    Given that the review Ms. Bowers gave of Ms. Helman was not 
a true indication of Ms. Helman's performance, would it have 
been your recommendation that the review given of Ms. Bowers 
should also be reevaluated and any bonus she has received 
rescinded?
    Ms. Farrisee. Ms. Bowers retired.
    The Chairman. Okay. There's no way to go back after they 
retire.
    Ms. Farrisee. No----
    The Chairman. This is another one of the disciplinary 
actions that VA takes that allows people to seal their benefits 
and not have anything taken back.
    Ms. Farrisee. Mr. Chairman, it was her right to retire.
    The Chairman. Yeah. Okay.
    Any other questions?
    Mr. Michaud.
    Mr. Michaud. Thank you, Mr. Chairman.
    I'd ask unanimous consent that Ms. Kirkpatrick's statement 
be entered in the record, as well as the Senior Executives 
Association letter that we received on April 19th--or June 
19th.
    The Chairman. Without objection.
    Mr. Michaud. Thank you.
    The Chairman. Thank you, everybody, for being here today.
    Thank you, Ms. Farrisee, for being with us.
    Ms. Farrisee. Thank you, Mr. Chairman.
    The Chairman. This hearing is adjourned.
    [Whereupon, at 11:10 a.m., the committee was adjourned.]
                                APPENDIX
              Prepared Statement of Jeff Miller, Chairman
    Committee will come to order.
    Thank you all for being here today.
    We had planned to have a business meeting this morning to subpoena 
two sets of documents from VA that were long outstanding requests made 
by this Committee.
    Yesterday, VA delivered information regarding the removal of six 
SES employees for the past two fiscal years. This request had been made 
by multiple Members of this Committee including myself in multiple 
hearings since February. This morning, VA delivered the second set of 
documents, which I requested via letter in October of 2013. The 
documents covered the performance reviews for each SES individual for 
Fiscal Years 2011 and 2012.
    Although VA's response to my requests has delayed, their production 
of the requested material is sufficient and therefore, after 
consultation with Ranking Member Michaud, we will no longer be having a 
business meeting this morning.
    During this morning's full committee hearing entitled, ``Review of 
Awarding Bonuses to Senior Executives at the Department of Veterans 
Affairs'' we will examine the outlandish bonus culture at VA and the 
larger organizational crisis that seems to have developed from awarding 
performance awards to Senior Executives despite the fact that their 
performance fails to deliver on our promise to our veterans.
    As the Committee's investigation into the Department continues, and 
new allegations and cover-ups are exposed, it is important that we 
examine how the Department has arrived at the point where it is today. 
Sadly, it's come to a point which has eroded veterans' trust and 
America's confidence in VA's execution of its mission. Part of the 
mistrust centers on a belief that VA employees are motivated by 
financial incentives alone, and I can see why.
    It appears as if VA's performance review system is failing 
veterans. Instead of using bonuses as an award for outstanding work on 
behalf of our veterans, cash awards are seen as an entitlement and have 
become irrelevant to quality of work product.
    I know we all agree that preventable patient deaths, delays in 
care, the continual backlog of disability claims, cost over-runs and 
construction delays for VA facilities, and deliberate behavior to 
falsify data are not behaviors that should be rewarded. Yet, despite 
startling issues that continue to come to light, as well as numerous 
past IG and GAO reports highlighting these same issues, a majority of 
VA `s senior managers received a performance award for FY 2013. 
According to VA`s own data, over $2.8 million was paid out in 
performance awards to Senior Executives for FY 2013. These performance 
awards went to at least 65% of the Senior Executive Workforce at the 
Department. In fact not a single senior manager at VA, out of 470 
individuals, received a less than fully successful performance review 
for the last fiscal year. Based on this Committee's investigations, 
outside independent reports, and what we have learned in the last few 
months, I wholeheartedly disagree with VA's assessment of its senior 
staff.
    It should not be the practice of any federal agency to issue 
taxpayers dollars in addition to paying six-figure salaries to failing 
senior managers just because a current OPM statute for members of the 
SES allows it. Bonuses are not an entitlement. They are a reward for 
exceptional work. VA's current practice only breeds a sense of 
entitlement and a lack of accountability, and this is why we are where 
we are today.
    This issue, unfortunately, is not a new one for VA. The Committee 
has focused its oversight on bonuses for years, and if Members were to 
go back and review a 2007 Subcommittee on Oversight and Investigations 
hearing on awarding of bonuses, you would find that the issues we raise 
today were also questioned seven years ago. There seems to be little to 
no improvement.
    In a May 2013 hearing VA construction chief, Glenn Haggstrom, 
admitted that he could not explain why he collected almost $55,000 in 
performance bonuses despite overseeing failed construction plans that 
cost our government nearly $1.5 billion in over-runs.
    In December 2012, an investigation by this committee revealed a 
legionella outbreak in the Pittsburgh Healthcare System that led to at 
least six patient deaths, nevertheless, the Director there, Terry 
Gerigk Wolf received a perfect performance review and the Regional 
Director, Michael Moreland, who oversaw VA's Pittsburgh operation at 
the time, collected a $63,000 bonus. To the average American, $63,000 
is considered to be a competitive annual salary--not a bonus.
    The Medical Center Director in Dayton, OH received a nearly $12,000 
bonus despite an open investigation into veterans' exposure to 
Hepatitis B and C under his watch. The Director of the Atlanta VA 
Medical Center who oversaw multiple preventable deaths received $63,000 
in performance bonuses over his four years there.
    The former director of the VA Regional Office in Waco, TX, received 
more than $53,000 in bonuses. While under his tenure, the Waco office's 
average disability claims processing time multiplied to inexcusable 
levels. Unfortunately, I could go on and on, as these are not the only 
instances of those charged with managing VA programs and health care 
facilities falling far short of the quality that veterans and their 
families deserve. In short, there are far too many examples that prove 
that bonuses do not ensure good performance.
    As we have previously heard from several witnesses, including those 
from VA, the quest for monetary gain rather than public service has led 
to data manipulation and secrets lists designed to create a false 
impression of quality health care that is timely and responsive to 
veterans. This is scandalous, even criminal, I would argue, and it runs 
far deeper than Phoenix.
    Today we will explore the circumstances surrounding the award and 
eventual rescission of a performance award provided to the former 
director of the VA Medical Center Director in Phoenix, AZ, Ms. Sharon 
Helman. In February 2014, Ms. Helman was given an $8,500 bonus for her 
performance during fiscal year 2013. Only after allegations against Ms. 
Helman came to light, as a result of this Committee's work, did a 
conscientious VA employee examine whether she received a bonus in 
fiscal year 2013. When we questioned the award, VA determined that she 
was given this bonus due to an ``administrative error.'' However past 
documentation from VA has stated that all performance reviews and 
awards are ultimately reviewed and signed by the Secretary.
    Furthermore, Ms. Helman's direct supervisor, former VISN 18 Network 
Director, Susan Bowers, stated in May that Sharon Helman received her 
bonus ``for a highly successful rating, and for improving access 
concerns and wait lists.'' Perhaps we should also question Ms. Bower's 
qualifications. These stories do not match up, and I believe it further 
brings into question VA's transparency, as well as diligence when 
issuing thousands of dollars to individuals.
    Although Acting Secretary Gibson has rightly put a freeze on all 
bonuses for Senior Executives at VHA for the time being, it is still 
this Committee's responsibility to understand the rationale for 
awarding five figure bonuses to individuals who have clearly fallen 
short of the Department's mission and their commitment to those who 
have served. A performance award should not be received because you 
were able to check off a few boxes on a form. A performance award 
should not be an expectation. A bonus is not an entitlement. Those at 
the Department of Veterans Affairs are there to serve veterans and 
their families. Anything less than the highest possible quality should 
not be rewarded. Gaming the bonus system is not the business that VA 
should be in.
    Today, we will hear what VA has to say about their performance 
review system, why senior managers who have overseen failure have 
received thousands of dollars in bonuses, and how these large 
performance awards could have led to the terrible situation the 
Department is now in.
    With that, I now recognize Ranking Member Michaud for his opening 
statement.
    Thank you.
    I ask that all members waive their opening remarks as per this 
committee's custom.
    I now invite our one witness today to the table.
    This morning, we will hear from the Honorable Gina Farrisee, 
Assistant Secretary for Human Resources and Administration, at the 
Department of Veterans Affairs.
    I ask the witness to please stand, and raise your right hand.
    Do you solemnly swear, under penalty of perjury, that the testimony 
you are about to provide is the truth, the whole truth, and nothing but 
the truth.
    Please be seated.
    Your complete written statement will be made part of the hearing 
record.
    Secretary Farrisee you are recognized for five minutes.
    Thank you, Secretary Farrisee.
    I will now yield myself five minutes for questions.
    Thank you once again.
    If there are no further questions, you are now excused.
    I now ask unanimous consent that all members have five legislative 
days to revise and extend their remarks and include extraneous 
material.
    Without objection, so ordered.
    I would like to once again thank our witness and audience members 
for joining us this morning.
    This hearing is now adjourned.
         Prepared Statement of Michael Michaud, Ranking Member
    Michael LeBouef, in his book ``The Greatest Management Principle 
Ever'', said ``The things that get measured are the things that get 
done.''
    We have seen this statement born out recently within VA in a very 
negative way. As witnesses have stated in recent hearings, VA's focus 
on unrealistic wait time measures resulted in employees manipulating 
the system to make it seem like they were meeting the measured 
standards.
    LeBouef went on to say, in a later book, ``The things that get 
measured and rewarded are the things that get done well.''
    Today, we are going to look at this second piece--how VA Senior 
Executives are rewarded, and how that system does, or does not, 
incentivize things to be done well.
    Before we get into that discussion, let me recognize that there are 
a lot of VA employees who does things well. As we shine the light of 
oversight on those who do not, let me pause for a moment and shine a 
brighter, more positive light on the hard-working employees in VA who 
do things right, and who do things well. To them, I say ``thank you for 
your service, and your example.''
    I have sat here, hearing after hearing, as we have learned, over 
and over again, that VA Senior Executives received significant bonuses 
after the people and organizations under their responsibility have 
failed to deliver on reasonable expectations of performance, and in 
some cases, have harmed the very people they are supposed to be 
serving. How does this happen?
    In its testimony, VA will lay out a very extensive and diligent 
process with all the seemingly right pieces, parts, checks and 
balances. So, what repeatedly goes wrong? Where does the system break 
down?
    I have asked numerous people--in and out of the Federal Senior 
Executive System--this question, and the most consistent answer is that 
the measures are wrong. That the goals and objectives defined for some 
VA Senior Executives are not adequate or appropriate to elicit the 
actions and behaviors desired or required. That the senior most leaders 
in VA are held accountable for managing the process that benefits VA, 
not delivering an outcome beneficial to veterans.
    This has got to change. Making the current form electronic and 
fillable isn't the answer. Transferring performance management data 
from a spreadsheet to a database isn't the answer. Defining goals and 
objectives based on what needs to be done for veterans is the answer. 
Rewarding Senior Executives only when they consistently do those things 
well is the answer.
    Ms. Farrisee, I look forward to your testimony. I hope we can set 
the example here today and talk less about the process of how VA Senior 
Executive performance management is done and more about how the 
outcomes for veterans can change if it is done well.

                                 <F-dash>
               Prepared Statement of Hon. Ann Kirkpatrick
    Bonuses should not be automatic. They should be for VA employees 
that go above and beyond just doing a job. VA employees that do not 
work to serve veterans should not only be denied bonuses, they should 
lose their jobs. Since this system of awarding bonuses to employees is 
easily subject to manipulation, the VA needs to look at other ways to 
recruit and retain talent, and ensure that employees that really go 
above and beyond are rewarded for exceptional performance.
    For the vast number of VA employees who do come to work every day 
to serve veterans, we need to look at other ways to recruit and retain 
them. The VA has a shortage of doctors, nurses, and medical staff and 
we need to look at other incentives beyond bonuses that could be 
offered to ensure that our VA medical facilities remain fully staffed 
and able to provide high-quality and timely care service.

                                 <F-dash>

                Prepared Statement of Hon. Timothy Walz
    It is clear that the Department of Veterans Affairs' (VA) current 
performance review and performance pay systems are part of the problem. 
We owe it to the thousands of professionals at the VA who are doing 
things right, and, most importantly, we owe it to the veterans in their 
care to get this problem fixed.
    I echo the GAO recommendation that the performance pay program must 
have a stated overarching purpose. That purpose must be improving 
health outcomes for veterans. This is the only thing that matters, and 
this is the only reason the VHA should exist.
    With the purpose of the program established, VA will need to 
standardize the performance pay and award policies across the country. 
Again, it must focus on improving health outcomes for veterans, and 
this should be true throughout the VA. It does not make sense to have 
over 150 individual performance pay policies as is currently the case. 
This system is ripe for the type of gaming and abuse that got us into 
this mess. It is also impossible for the Secretary to provide oversight 
when there is not a consistent policy. In fact, as we look to the 
future of VA reform, national standardization of the VA should be a 
pillar of any organizational reform we seek to undertake.
    Development of this program must be done in a clear and transparent 
manner, leveraging expertise and opinions from veterans, doctors, 
staff, and specialists. The starting point for all that we do has to be 
the veteran; if we are going to improve their health outcomes, we have 
to get them directly involved in the process. I encourage the VA to 
leverage the Veteran Service Organizations (VSO) to accomplish this. 
Performance management and awards have been a part of medicine for a 
long time, and there are best practices in both the private and public 
sector which we can leverage. In the end, I call on the VA to solicit 
input from everyone, and, as they rebuild their performance management 
program, the VA must do so in a transparent, open manner. I also expect 
the VA to keep this body informed of all developments and to work with 
us to ensure whatever program is developed is efficient, effective and 
provides the best outcomes for veterans' health.

[GRAPHIC] [TIFF OMITTED] 

                        Questions For The Record
         Letter and Questions From: Committee Minority Members
    June 24, 2014
    The Honorable Sloan Gibson
    Acting Secretary
    U.S. Department of Veterans Affairs
    810 Vermont Avenue, NW
    Washington, DC 20420

    Dear Mr. Secretary:

    In reference to our Full Committee hearing entitled, ``Review of 
Awarding Bonuses to Senior Executives at the [VA]'' that took place on 
June 20, 2014, I would appreciate it if you could answer the enclosed 
hearing questions by the close of business on July 31, 2014.
    Please note that our Members understand some information may 
ultimately be provided by the current IG investigation. For questions 
which will be answered by the investigation, please include a statement 
to that effect and a brief explanation of your reasoning. Members are 
happy to receive complete answers to individual questions as they are 
available. For responses that may be delayed, please provide an interim 
response or propose an appropriate interim briefing or conference call.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for materials for all Full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively and single-spaced. In 
addition, please restate the question in its entirety before the 
answer.
    Due to the delay in receiving mail, please provide your responses 
electronically to Saki Ververis at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f98a989290d78f9c8b8f9c8b908ab994989095d791968c8a9cd79e968fd7">[email&#160;protected]</a> If you 
have any questions, please call 202-225-9756.
    Sincerely
    Michael Michaud,
    Ranking Member
     Questions From Committee Minority Members to Gina S. Farrisee
Rep. Mark Takano
    1. Please provide an organization chart which identifies the SES or 
Title 38 SES equivalent positions within the local VISN and medical 
center structure. I want a better understanding of the organizational 
structure and who would have an incentive to game the system. From 
initial input of a health care appointment, to the person who can 
change that appointment and who can give direction to change an 
appointment, I want a clear picture of how many people are involved 
with the appointment making process.
    2. What safeguards, if any, are within the scheduling software to 
ensure a data trail is available to see when scheduling data is 
changed? Is there any way to see whether people are manipulating an 
initial appointment to meet wait time expectations?
    3. Finally, I would like to see a cost comparison between VA 
provided health care and private health care for an average 60-year old 
male veteran patient with diabetes and heart disease. The comparison 
should include administrative, medical, and prescription costs. Please 
also provide a breakdown of the variables used to calculate these 
costs.
Rep. Julia Brownley
    1. Please provide a detailed breakdown of VISN executive pay broken 
down by SES, title 38 SES equivalents, and non-managing title 38s. 
Ideally, the breakdown will include the range of pay available in the 
form of base pay, relocation and retention pay, market pay, bonuses, 
awards, or other pay incentives available for these individuals. Please 
also include a list of measures used to determine how eligible 
employees qualify for such payments. For measures that vary between 
networks, such as performance pay, please provide the measures used in 
VISN 22 (greater Los Angeles) and two other random networks for 
comparison. Any other bonus payments from outside the VA, such as the 
Presidential Rank Award, should also be provided.
Rep. Raul Ruiz
    1. What year did performance pay begin being tied to wait times? 
Please describe the relevant performance measures tied to wait times. I 
am interested on knowing how wait times are factored into performance 
measures.
    2. Do any performance measures use patient satisfaction feedback? 
Are there any plans to include a patient satisfaction measure in 
calculating performance pay across all VISNs?
Rep. Beto O'Rourke
    1. What recruitment incentives are available at the local level and 
how can they be applied to needs in areas like El Paso? El Paso 
veterans have desperate mental health care needs and those needs are 
going unheeded despite repeated attempts to communicate with the VISN 
18 director.
    2. Please provide the total budget available for employing 
providers for VISN 18 and the total expected costs for FY2014. Please 
also provide the budget allotted for El Paso providers, the amount of 
that budget currently in use, and a description of how that 
determination was made.
    3. I am especially interested on performance measures which are 
based on adhering to budget expectations. Please provide a detailed 
description of any performance measures which use meeting budgetary 
expectations as a factor and what those budget expectations are. Please 
also provide the VISN operating budgetary policy and a brief 
description of what happens when a need to hire more providers is 
identified.
Rep. Dina Titus
    1. How did the VA miss the false credentials used by the VISN 21 
Director Sheila M. Cullen to attain her position? What performance 
awards did she receive during her tenure as director, and how long will 
she be able to stay in her position. Will she remain an employee with 
the VA? If so what is the reasoning?
Rep. Ann Kirkpatrick
    1. VA officials were on notice that ``gaming strategies'' were 
being used to misreport patient wait times at VA medical facilities 
based on the April 26, 2010 ``Inappropriate Scheduling Practices'' memo 
that went to all network directors. Which reviewing officials signed 
off on SES performance appraisals for those SESs responsible for VA 
medical facilities where manipulation of patient wait time data and 
unauthorized scheduling practices were found to have taken place?
    2. Did any reviewing officials sign off on performance appraisals 
recommending bonuses for SES employees whose facilities were under 
investigation by the IG?
    3. Who were the officials on the Performance Review Committees that 
signed off on performance appraisals and recommended bonuses for these 
SESs to the Performance Review Board for approval? Who were the 
officials on the Performance Review Board that recommended bonuses for 
these SESs to the VA Secretary?
    4. Will the VA hold network and medical center leaders that 
received bonuses accountable in VISNs and medical facilities where the 
audit found that appointment wait time data was being manipulated and 
appointment scheduling ``gaming strategies'' were being used?
    5. Why was performance pay awarded to providers that had action 
taken against them related to clinical performance? These were 
providers that failed to competently read mammograms and other complex 
medical images, providers that were practicing without a license and 
providers leaving residents unsupervised during surgery. Why did the VA 
believe these providers deserved performance pay for non-performance? 
Is this because performance pay was automatically awarded to every 
employee?
    6. How can the VA hold employees accountable if bonuses and 
performance pay are awarded automatically?
    7. There is a shortage of doctors, nurses and medical staff in the 
VA. What other incentives could the VA use to recruit and retain health 
care providers beyond bonuses and performance pay? We know that the VA 
loses health care providers to the DoD. Why hasn't the VA considered 
increasing the base salary of VA health care employees so that they 
receive comparable pay? Has the VA considered offering other incentives 
such as student loan repayment, or increased pay for VA providers 
willing to work in rural and underserved areas? What additional 
professional opportunities could the VA offer its health care providers 
to recruit and retain those who are dedicated to serving veterans?
    8. Why is the purpose of the Veterans Health Administration's (VHA) 
performance pay policy (to improve health outcomes and quality) not 
articulated in the VHA's performance pay policy?
    9. Since network and medical center leadership were granted the 
discretion to set goals that providers must achieve to receive 
performance pay, why did the VHA fail to review these goals to ensure 
that performance pay was linked to provider performance goals?
    10. How will the VA ensure that only employees who perform 
exceptional work are rewarded in the future?

[GRAPHIC] [TIFF OMITTED] 

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
